September 30, 2010

JOSEPH CORBETT
CHIEF FINANCIAL OFFICER AND EXECUTIVE VICE PRESIDENT

MARIE THERESE DOMINGUEZ
VICE PRESIDENT, GOVERNMENT RELATIONS AND PUBLIC POLICY

SUBJECT: Management Advisory – Summary of Substantial Overfunding in Postal
         Service Pension and Retiree Health Care Funds
         (Report Number FT-MA-10-002)

This report summarizes the results of four U.S. Postal Service Office of Inspector
General (OIG) reports identifying overfunding issues in employees’ and retirees’ benefit
funds (Project Number 10BS002FT000). This self-initiated report addresses financial
risk. See Appendix A for additional information about this topic.

The U.S. Postal Service has reached a critical point in its history. It faces tremendous
challenges to overcome in order to remain financially sound and meet its mission.
Because the Postal Service is such a large employer with substantial retirement
benefits, prefunding requirements of its pension and retiree health care liabilities pose
significant challenges. Our office has researched prefunding Postal Service pension and
retiree health care funds to determine whether such requirements are reasonable and
whether overfunding issues could exist.

Congress recognizes the Postal Service’s financial challenges and the issues
associated with prefunding certain liabilities. Two Congressional reports, the Senate
Committee on Appropriations’ Report to Accompany S. 1436 Financial Services and
General Government Appropriations Bill 2010 (Senate Report 111-43) and the U.S.
House’s Conference Report to Accompany H.R. 3288 Departments of Transportation
and Housing and Urban Development, and Related Agencies Appropriations Act, 2010,
(House Report. 111-366) make suggestions to the agency in this regard. The reports
urge the Postal Service to coordinate with the Office of Personnel Management (OPM)
and Office of Management and Budget (OMB) to develop a fiscally responsible
legislative proposal granting a limited measure of relief from the Postal Accountability
and Enhancement Act (Postal Act of 2006) requirements to prefund retiree health
benefits.
Summary of Substantial Overfunding in Postal Service                                       FT-MA-10-002
 Pension and Retiree Health Care Funds


This report discusses OIG reports the Postal Service can use when working with those
agencies. It summarizes our work identifying overfunding in the pension and retiree
health care funds and provides sizing information on the amounts of the overfunding.

Conclusion

We have planned or issued four OIG reports1 presenting overfunding issues associated
with pension and retiree health care funds. If our proposals to recover the overfunded
amounts were placed in effect, the Postal Service could potentially recover $142.4
billion. In addition, the Postal Service:

      Would no longer be required to prefund the Postal Service Retiree Health
       Benefits Fund (retiree health fund) an average of $5.6 billion per year.

      Could prefund pensions and retirees’ health benefits at benchmarked levels.

      Could pay existing retirees’ health insurance premiums from the retiree health
       fund.

      Could extinguish its debt to the U.S. Department of the Treasury (Treasury).

The proposals could also provide significant levels of cash for operations, subject to
any legislative restrictions placed on those funds. Finally, providing these funds would
allow the Postal Service to continue optimizing its infrastructure at a more reasonable
pace and minimize the impact on current employees. While these proposals might be
more than the “limited measure of relief” envisioned by the Senate and House
conference reports, they are critical to addressing the Postal Service’s financial needs.
Also, implementing these proposals could end the unjust practice of using Postal
Service funds provided by postage ratepayers to fund benefits for non-postal
government employees. These proposals include:

    1. Recover the $75 billion overfunding to the Civil Service Retirement System
       (CSRS) and use the funds to extinguish the Postal Service’s $10 billion debt to
       the Treasury2 and finance retiree health care. Certain Postal Service employees
       and retirees were employed by the former Post Office Department and we
       determined the OPM’s current method of funding CSRS pensions allocates a
       disproportionately higher share of costs to the Postal Service.3 If the Postal
       Service partially uses the funds to extinguish the debt, the Postal Service could
       avoid future annual interest expense of about $157 million. See Appendix C for
       our calculation of monetary impact. Further, if the agency used the funds to
1
  We will issue the fourth report addressing prefunding pensions and retiree health care at 80 and 30 percent levels,
respectively, in the near future.
2
  As of September 30, 2009.
3
  The Postal Service’s Share of CSRS Pension Responsibility (Report Number RARC-WP-10-001, dated
January 20, 2010) and Civil Service Retirement System Overpayment by the Postal Service (Report Number CI-MA-
10-001, dated June 18, 2010).




                                                          2
Summary of Substantial Overfunding in Postal Service                                     FT-MA-10-002
 Pension and Retiree Health Care Funds


        finance retiree health care, the Postal Service would be relieved of Postal Act of
        2006’s funding requirements.

    2. Reduce prefunding levels to benchmarked standards of 80 percent for pensions
       and 30 percent for retiree health care. We benchmarked and found Standard and
       Poor’s 500 companies’ (S&P 500) prefunded levels for pensions to be 80 percent
       and Fortune 1000 companies retiree health care prefunded levels to be 30
       percent.4

        If the Postal Service prefunded its pension responsibilities at the benchmarked
        levels rather than the current 100 percent level, it could potentially recover $45.9
        billion.5 If the prefunding of the retiree health care liabilities were lowered to 30
        percent, the Postal Service could recover $9.2 billion. Combining the two
        amounts yields $55.1 billion. We plan to issue our report on this matter in the
        near future.

    3. Recover overfunding of FERS pension contributions of $5.5 billion. Based on
       information from the OPM, the Postal Service’s Federal Employee Retirement
       System (FERS) pension plan was overfunded at the end of fiscal year (FY) 2008
       and projected to be overfunded at the end of FY 2009.6 Allowing some flexibility
       to address recent legislative changes in the fund and possible changes to
       actuarial assumptions, we determined the Postal Service could potentially
       recover $5.5 billion due to overfunding. See Appendix C for our calculation of
       monetary impact.

    4. Reduce the projected health care inflation rate to the industry standard of
       5 percent. In our prior work in this area,7 we determined the OPM had assumed a
       7 percent inflation rate, versus the benchmarked standard of 5 percent. Changes
       have been made to the OPM assumptions,8 but even with the revised inflation
       rates, there is overfunding. We estimated the Postal Service could potentially
       recover $6.8 billion. See Appendix C for our calculation of monetary impact.

The table on the next page summarizes these initiatives and their impact, if enacted, in
FY 2011. See Appendix B for further discussion and detailed analyses of these
opportunities.


4
  The federal government currently prefunds its pension responsibilities at 41 percent and its retiree health care
liabilities at 0 percent. See the Postal Service inspector general's written statement Continuing to Deliver: An
Examination of the Postal Service’s Current Financial Crisis and its Future Viability, dated April 15, 2010, to the
Committee on Oversight and Government Reform and the Subcommittee on the Federal Workforce, Postal Service,
and the District of Columbia, U.S. House of Representatives.
5
  $31.8 billion from CSRS funding and $14.1 billion from FERS funding.
6
  The OPM has not yet determined the final FY 2009 funding status.
7
  Estimates of Postal Service Liability for Retiree Health Care Benefits (Report Number ESS-MA-09-001(R), dated
July 22, 2009).
8
  Since we issued the report, the OPM has revised the projected inflation rate using a downward slope, commencing
at 8 percent and ending at 5.5 percent.




                                                         3
Summary of Substantial Overfunding in Postal Service                                          FT-MA-10-002
 Pension and Retiree Health Care Funds


            Summary of Pension and Retiree Health Care Overfunding Issues

           Opportunity                 Potential Recovery                            Additional Details
    Recover CSRS                      $75 billion9                     $75 billion available for $10 billion debt
    overfunding.                                                       payment and operations (might be
                                                                       partially restricted for future retiree
                                                                       liabilities).
    Reduce funding                    $55.1 billion10 ($31.8           $55.1 billion available for operations
    percentages for retiree           billion CSRS, $14.1              (might be partially restricted for future
    pension and health care           billion FERS, and $9.2           retiree liabilities), payments for current
    plans to benchmarked              billion retiree health           retirees’ health care insurance premiums
    standard:                         care11).                         paid from the retiree health fund, and
                                                                       payments to maintain fund levels
        CSRS/FERS at 80                                               calculated on an actuarial basis each
       percent.                                                        year.
        Retiree health care
       at 30 percent.
    Recover FERS                      $5.5 billion.                    $5.5 billion available for operations (might
    overfunding.                                                       be partially restricted for future retiree
                                                                       liabilities).
    Reduce excessive inflation        $6.8 billion, if done at         $6.8 billion available for operations.
    assumptions on retiree            the same time as
    health care from OPM              reduced funding of
    sloping scale to 5 percent        retiree health care to
    benchmarked standard.             30 percent.

    Total Potential Recovery          $142.4 billion
Source: Planned or issued OIG reports.

The Postal Service has opportunities to appropriately fund its pension and retiree health
care obligations, reduce debt, eliminate burdensome Postal Act of 2006-required annual
payments, and dramatically improve cash flow. The total potential is $142.4 billion
available for operations and other needs, in addition to other benefits, such as earning
interest and eliminating interest payments.

These opportunities should be included in deliberations with the OPM and the OMB
when addressing the Postal Service’s financial condition. Furthermore, they should be
included in discussions with Congress, the Postal Regulatory Commission, and other
stakeholders, as appropriate. Addressing these issues would significantly improve the


9
  The Segal Company, in its report to the Postal Regulatory Commission on this matter (Report to the Postal
Regulatory Commission on Civil Service Retirement System Cost and Benefit Allocation Principles, dated June 29,
2010), estimated the overpayment as between $50 billion and $55 billion.
10
   Based on September 30, 2009, balances.
11
   This amount represents a recovery based on reducing funding of retiree health care to 30 percent of the liability.
The $6.8 billion listed above represents reducing the liability based on lower expected inflation rate for future health
care.




                                                            4
Summary of Substantial Overfunding in Postal Service                 FT-MA-10-002
 Pension and Retiree Health Care Funds


Postal Service’s financial condition and allow it to operate in a business-like manner,
effecting a transformation envisioned by the Postal Act of 2006.

We previously made recommendations addressing the $75 billion CSRS overfunding for
the OPM’s improper allocation methodology, the $5.5 billion FERS overfunding, and the
$6.8 billion for the OPM’s use of excessive inflation assumptions. We will soon be
making recommendations addressing a $55.1 billion overfunding based on prefunding
pensions at 80 percent and retirees health care at 30 percent of actuarial liabilities.

We recommend the chief financial officer and executive vice president, in coordination
with the vice president, Government Relations and Public Policy:

1. Develop a comprehensive legislative strategy to recover overfunded amounts.

2. Aggressively pursue and carefully review all available data related to Civil Service
   Retirement System, Federal Employee Retirement System, and retiree health
   benefit calculations, including those associated with determining any overfunding
   situations, to ensure that calculations are reasonable and accurate.

Management’s Comments

Management neither agreed nor disagreed with the recommendations or the monetary
impact. However, management is currently working with Congress to address the
findings of the four reviews summarized in this report. For example, they are actively
pursuing a legislative solution to the CSRS overfunding, and are considering requesting
legislation that would provide a mechanism to recover and resolve any future FERS
overfunding.

Further, management currently reviews the annual valuations provided by the OPM and
plans to continue this effort. Prior to the Postal Act of 2006, management performed
independent annual valuations of the retiree health fund and will consider reinstituting
this practice. While management has not performed regular independent valuations of
the CSRS or FERS programs, they will consider reinstituting this practice. See
Appendix D for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations, and
management’s corrective actions should resolve the issues identified in the report.
Although management did not provide specific target completion dates for corrective
actions, the OIG understands management cannot predict when or if Congressional
actions will be taken or completed. We will continue to monitor the actions taken by the
Postal Service to address these recommendations.




                                                   5
Summary of Substantial Overfunding in Postal Service               FT-MA-10-002
 Pension and Retiree Health Care Funds


The OIG considers both recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director,
Financial Reporting, or me at 703-248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: Stephen J. Masse
    Kimberly A. Weaver
    Corporate Audit and Response Management




                                                   6
Summary of Substantial Overfunding in Postal Service                    FT-MA-10-002
 Pension and Retiree Health Care Funds


                         APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

In recent years, the Postal Service has experienced an unprecedented reduction in mail
volume. This decline resulted from a major recession the nation recently confronted and
from diversion of letter mail to electronic alternatives. The effect of these two conditions
has been a substantial drop in revenue, placing the Postal Service in dire financial
circumstances.

Adding to the challenges, the Postal Service faces requirements by the Postal Act of
2006 to fund its future retirees’ health care obligations through FY 2016 at an average
of $5.6 billion annually. In addition, it must pay its share of existing retirees’ health care
premiums of about $2.2 billion annually. These burdensome requirements, when added
to the decline in revenues, rendered the Postal Service capable of only making $1.4
billion of the Postal Act of 2006-required retiree health care payment of $5.4 billion as of
September 30, 2009. Congress thus amended the required payment for FY 2009 to the
amount the Postal Service paid.

The OIG has issued reports and a white paper detailing overfunding in pension and
retiree health care funds that, if rectified, could enable the Postal Service to readily
address the challenges. These opportunities would enable the Postal Service to fully
meet its obligations, extinguish debt, and provide substantial positive cash flow.

Because Congress amended the Postal Act of 2006 for FY 2009 only, there remains a
critical need for immediate action. The Postal Service is uncertain whether it will have
sufficient cash on September 30, 2010, to fund the required $5.5 billion payment to the
retiree health care fund. Also, in July 2009, the Government Accountability Office (GAO)
listed the Postal Service as one of its “high-risk” government agencies.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this advisory is to summarize various OIG reports in identifying
substantial cost-recovery opportunities related to employees’ and retirees’ benefits. We
accumulated information from inspector general testimonies to Congress, prior audit
and management advisory reports, the Postal Service’s 2009 annual report, and other
sources in preparing this report. We did not rely on computer-generated data to support
the opinions and conclusions presented in this report.




                                                   7
Summary of Substantial Overfunding in Postal Service                                    FT-MA-10-002
 Pension and Retiree Health Care Funds


We conducted this review from May through September 2010 in accordance with the
Quality Standards for Inspections.12 We discussed our observations and conclusions
with management officials on September 10, 2010, and included their comments where
appropriate.

PRIOR AUDIT COVERAGE

We issued the following reports addressing opportunities for recovering overfunded
amounts related to employees’ and retirees’ benefits. Management generally agreed
with our recommendations that included seeking financial relief.

                                                         Final
     Report Title           Report Number               Report                     Report Results
                                                         Date
Federal Employees             FT-MA-10-001              8/16/2010       This report identifies that the Postal
Retirement System                                                       Service overfunded its FERS
Overfunding                                                             contributions by $5.5 billion. Also,
                                                                        there is no present legislation to
                                                                        resolve surpluses. Further, it
                                                                        recommends that the Postal Service’s
                                                                        pension responsibilities be clearly
                                                                        delineated and separated from those
                                                                        of the rest of the federal government.
Civil Service                  CI-MA-10-001            6/18/2010        The report discusses the $75 billion
Retirement System                                                       CSRS overfunding by the Postal
Overpayment by the                                                      Service, assesses the related facts,
Postal Service                                                          and identifies solutions.
The Postal Service’s        RARC-WP-10-001              1/20/2010       This report discusses the inequities of
Share of CSRS                                                           the current system of funding of the
Pension                                                                 Postal Service’s CSRS pension
Responsibility                                                          responsibility and explains that it has
                                                                        resulted in the Postal Service
                                                                        overfunding $75 billion to the pension
                                                                        fund.
Estimates of Postal         ESS-MA-09-001(R)           7/22/2009        This report questions the OPM’s
Service Liability for                                                   assumption that the annual health
Retiree Health Care                                                     care cost inflation rate will average 7
Benefits                                                                percent annually for all future years.




12
   These standards were last promulgated by the President’s Council on Integrity and Efficiency (PCIE) and the
Executive Council on Integrity and Efficiency (ECIE) in January 2005. Since then, The Inspector General Act of 1978
as amended by the IG Reform Act of 2008, created the Council of the Inspectors General on Integrity and Efficiency
(CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Inspections have not been amended
to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.




                                                        8
Summary of Substantial Overfunding in Postal Service                                     FT-MA-10-002
 Pension and Retiree Health Care Funds


                                APPENDIX B: DETAILED ANALYSIS

CSRS Overfunding

The Postal Service overpaid its CSRS obligation by $75 billion because the OPM
calculates the federal government’s portion of retirees’ pensions using their salaries as
of June 30, 1971.13 This “freeze frame” methodology results in a significantly higher
liability for the Postal Service. Also, Public Law 108-18, passed in April 2003, requires
the Postal Service to fund CSRS pension benefits on a “dynamic actuarial model.” This
model anticipates the effect of inflation, which includes both increases in salary and cost
of living adjustments to pensions.

The “freeze frame” methodology resulted in the Postal Service overfunding its CSRS
obligation by $75 billion, which should be refunded. The $75 billion refund would allow
the Postal Service to pay off its $10 billion of debt to Treasury. By doing this, the Postal
Service could avoid annual future interest expense of about $157 million. In addition, all
required prefunding of pensions and retirees’ health care could be met. Further, the
Postal Service’s payments for health benefit premiums of current retirees could be paid
from the fund, eliminating an additional $2.2 billion in payments per year.

On April 15 and 22, 2010, the postmaster general and chief executive officer discussed
the issue in his testimony before a U.S. House of Representatives committee and U.S.
Senate subcommittee, respectively. In addition, management, in response to the OIG
advisory report concerning the $75 billion overfunding, acknowledged the overfunding
and stated that it is pursing various options the OIG provided to obtain a more equitable
CSRS valuation and access to any resulting funds.

In addition, the Segal Company (Segal), in its report to the Postal Regulatory
Commission on this matter,14 recognized the economic impact of the OPM’s actuarial
calculations on the Postal Service. However, Segal estimated the overpayment being
between $50 billion and $55 billion. Its lower estimate resulted from using a different
methodology for calculation which found that the federal government should benefit
from the graduated rates of earning pension benefits. Segal agreed with the OIG that
the “freeze frame” approach should not be used and stated its belief that the Postal
Service should be entitled to review, at its own expense, the OPM’s actuarial
assumptions, methods, and calculations in identifying the overfunded amount.




13
   On that date, the U.S. Post Office Department ceased operations, and the U.S. Postal Service was established.
Employees of the Post Office Department who were participants in the CSRS remained covered for retirement
benefits when they became employees of the Postal Service.
14
   Report to the Postal Regulatory Commission on Civil Service Retirement System Cost and Benefit Allocation
Principles, dated June 29, 2010.




                                                         9
Summary of Substantial Overfunding in Postal Service                                 FT-MA-10-002
 Pension and Retiree Health Care Funds



Prefund Pensions at 80 Percent and Retiree Health Care at 30 Percent

Our benchmarking results showed the Postal Service could fund pensions and the
retiree health care fund at less than 100 percent of actuarial liabilities. The S&P 500
companies’ median prefunding level for pensions in 2009 was 79 percent of their
pension liabilities.15 The aggregate prefunding for states’ pensions in 2008 was also
79 percent. In addition, the GAO has reported that many experts consider at least
80 percent prefunding to be sound for government pensions.16 Further, the Pension
Protection Act of 2006 considers pensions that are prefunded at less than 70 percent as
being “at risk” and attempts to protect such plans by commencing restrictions when
prefunding is below 80 percent. By contrast, the federal government currently prefunds
its pension responsibilities at 41 percent and the military at 24 percent. If the Postal
Service’s funding percentage was reduced to 80 percent, it would have overpaid its
CSRS liability an additional $31.8 billion and its FERS liability by $14.1 billion, a total
overfunding of $45.9 billion.

Moreover, we determined the average level by Fortune 1000 companies that prefund
retiree health care (many do not prefund) is 28 percent, and the military prefunds retiree
health care at 29 percent. Also, we determined that state governments that prefund their
retirees’ health care averaged 30 percent. By contrast, the federal government does not
prefund its retiree health care at all, even though its liabilities result from using the same
plans as the Postal Service.

Rounding to 30 percent, the Postal Service could prefund its retiree health care plan
liability at $26.2 billion. With assets of about $35.5 billion, the Postal Service has
overfunded its obligation by $9.2 billion. This overfunding combined with the $45.9
billion overfunding from pensions would yield a $55.1 billion potential recovery.

Using this approach, payments for pensions and retiree health care liability would need
to be made each year on an actuarial basis to maintain funding levels at 80 percent and
30 percent. This approach provides the Postal Service with a means of maintaining
fiscal responsibility during the current financial crisis. During financially lucrative periods,
management could choose to prefund at higher levels. Consequently, there would no
longer be a need for Postal Act of 2006 funding requirements averaging $5.6 billion, as
they would be superseded by this new obligation to maintain annual funding at a 30
percent level. Further, current retiree health care costs presently at about $2.2 billion
could be paid from the fund. We plan to issue a report on this matter in the near future.




15
  From 2001 through 2009, S&P 500 companies’ median pension prefunding ranged from 73 to 112 percent.
16
  The GAO's State and Local Government Retiree Benefits Current Funded Status of Pension and Health Benefits,
dated January 2008.




                                                      10
Summary of Substantial Overfunding in Postal Service                    FT-MA-10-002
 Pension and Retiree Health Care Funds



FERS Overfunding

Postal Service career employees hired after December 31, 1983, generally participate
in FERS, which provides the same retirement benefits to other federal government
employees. In FY 2009, the Postal Service contributed $3 billion to FERS based on a
contribution rate of 11.2 percent of employees' pay. The OPM establishes FERS
contribution rates using actuarial assumptions for future rates of inflation, cost of living
adjustments, annual salary increases, and an assumed rate of return. Funding is
accomplished through employee payroll deductions, in addition to agency contributions.
The funding status for the Postal Service, as well as the federal government, is
calculated by subtracting the pension assets from the actuarial accrued liability.

At the end of FY 2008, the Postal Service’s portion of FERS had a $6.5 billion surplus
based on information from the OPM. The FERS surplus was projected to be $6.8 billion
at the end of FY 2009.17

Recently legislation passed providing a retirement credit for sick leave for employees
participating in FERS. This 30-year anticipated liability could reduce the current plan
surplus by up to $680 million. Additionally, we expect that changes in actuarial
assumptions could reduce the surplus by another $620 million. Even with these
adjustments, there is a surplus of $5.5 billion.

Controlling excessive surpluses in FERS pension obligations would substantially reduce
the annual expenses incurred by the Postal Service and increase the cash flow from its
operations. This action promotes the Postal Service’s ability to operate on a self-
supporting, break-even basis and cover its expenses through its revenue rather than
taxpayer dollars.

The OPM's Assumed Health Care Inflation Rate

The Postal Service is required by the Postal Act of 2006 to prefund retirees' health care.
Prefunding is accomplished via deposits into the retiree health fund. The OPM provides
calculations of the fund's assets and values the related liabilities.

An employer's accumulated post-retirement benefit obligation, including retirees' health
care, is the actuarial present value of all future benefits attributed to an employee’s
service rendered to that date. The obligation assumes the plan continues in effect and
that all assumptions about future events are fulfilled. In developing an employer’s
assumed or future health care costs, estimates of health care inflation are considered.

We ascertained that the OPM’s assumption that annual health care cost inflation will
average 7 percent annually for future years is unreasonably high. Using this

17
     The OPM has not yet determined the final FY 2009 funding status.




                                                          11
Summary of Substantial Overfunding in Postal Service                                       FT-MA-10-002
 Pension and Retiree Health Care Funds


assumption, at the end of FY 2016, the estimated retiree health care liability is expected
to be $129.4 billion. Assets in the retiree health benefit plan are expected to be
$103.7 billion. The resulting unfunded liability would be $25.7 billion, making the plan
about 80 percent prefunded.

We determined industry, publicly owned utilities, and the private sector generally used a
projected health care inflation rate of about 5 percent. Using this lower rate, at the end
of FY 2016, the Postal Service will have a retiree health care liability of $90.5 billion and
asset funding of $103.7 billion. Given the more reasonable health care inflation rate
assumption, the Postal Service will have overfunded its retiree health care liability by
$13.2 billion, making the plan about 115 percent prefunded.

The OPM has since revised its trend rate for health care inflation from a flat 7 percent
average to a sloped trend rate that starts at 8 percent and gradually decreases to
5.5 percent. Using this new trend rate, the OPM projected the Postal Service’s retiree
health liabilities to be $87 billion as of the end of FY 2009.18 If the current sloped rate
were reduced to the 5 percent level used in the private sector and were paired with the
reduction in retiree health care prefunding levels to benchmarked standards
(30 percent), the Postal Service could potentially recover another $6.8 billion.




18
     We have not seen any FY 2016 liabilities projected by the OPM since it commenced using sloped inflation rates.




                                                           12
Summary of Substantial Overfunding in Postal Service                                      FT-MA-10-002
 Pension and Retiree Health Care Funds


                                  APPENDIX C: MONETARY IMPACT

In prior reports, the OIG identified a monetary impact associated with the CSRS pension
overpayment and retiree health benefits. Specifically, in the report Civil Service
Retirement System Overpayment by the Postal Service,19 the OIG noted the Postal
Service overpaid the CSRS fund about $75 billion since 1971. The OIG calculated
$49.808 billion in monetary impact based on recovery of that amount; however, it did
not include interest expense avoided as a result of extinguishing the Treasury debt. In
addition, in the report Estimates of Postal Service Liability for Retiree Health Care
Benefits,20 the OIG questioned the OPM’s assumption that the annual health care cost
inflation rate will average 7 percent annually for all future years. The OIG calculated
$5.95 billion in monetary impact based on suspension of the Postal Act of 2006-required
payments; however, it did not include savings related to altering the liability amount for
retiree health benefits. The following summarizes the additional monetary impact
identified.

                                        Funds Put to Better Use21

                                  Finding                                         Amount
                 Interest Expense Avoided                                       $1,334,328,299
                 FERS Overfunding                                                3,297,375,216
                 Reduction in the Projected Health Care                          4,076,754,812
                 Inflation Rate
                 TOTAL                                                       $8,708,458,32722

Interest Expense Avoided

The $75 billion refund would allow the Postal Service to pay off its $10 billion debt to
Treasury. By doing this, the Postal Service could avoid future interest expense. We
have calculated the related monetary impact as $1,334 million, based on the length of
and interest rates on the notes to Treasury as of September 30, 2009.




19
   Report Number CI-MA-10-001, dated June 18, 2010.
20
   Report Number ESS-MA-09-001(R), dated July 22, 2009.
21
   Funds that could be used more efficiently by implementing recommended actions.
22
   The total potential recovery is $142.5 billion. This appendix recognizes monetary impact for the three areas listed
using present value computations. The OIG has claimed in prior reports monetary impact related to CSRS
overfunding and savings related to suspending its Postal Act of 2006-required annual payments. The OIG also
intends to claim additional monetary impact related to reducing prefunding levels to benchmarked standards when we
issue that report in the near future.




                                                         13
Summary of Substantial Overfunding in Postal Service                                      FT-MA-10-002
 Pension and Retiree Health Care Funds




                         Interest Avoided on                                        Amount
                     Elimination of Treasury Debt                                (in millions)
             Annual Average Amount of Debt Carried                                    $7,39723

             Annual Payment Reduction in Interest Expense                                 ($157)

             Present Value of Interest Expense Avoided for                                $1,334
             a 10-Year Period24

FERS Overfunding

Current OPM funding rules state that underfunded amounts are amortized over 30
years and the annual payment represents a supplemental amount in addition to the
normal cost. No provision for correcting a surplus situation currently exists; therefore,
the current rules are described as “asymmetric.”25

We assume the current $5.5 billion surplus amount could be corrected in a manner
analogous to the OPM’s funding rules for an underfunded situation whereby that
amount is amortized over 30 years and the resulting annual payment is deducted from
the annual Postal Service FERS normal cost contribution to the fund. Effectively, the
Postal Service would be providing the OPM with a 30-year loan at a 5.75 percent
annual interest rate.




23
   We estimated the average principal on the revolving line of credit by averaging the ending balance sheet amounts
for Q4, FY 2009; Q1, FY 2010; Q2, FY 2010; and Q3, FY 2010.
24
   Using the Postal Service’s current cost of capital rate of 3.875 percent, OIG policy allows monetary impact to be
calculated for a 10-year period.
25
   Not identical on both sides of a central line.




                                                         14
Summary of Substantial Overfunding in Postal Service                                        FT-MA-10-002
 Pension and Retiree Health Care Funds




                                                                                     Amount
                             FERS Pension Surplus
                                                                                   (in millions)
              Projected Overfunded Amount as of                                           $6,800
              September 30, 2009
              Less: Impact of 30-Year Anticipated Liability for                                (680)
              Sick Leave Credit
              Less: Impact of Potential Changes to Actuarial                                   (620)
              Assumptions
              Adjusted Surplus                                                              $5,500

              Annual FERS Payment Reduction Amount                                           ($389)
              Resulting from Amortizing $5.5 Billion Adjusted
              Surplus Over 30 Years26

              Present Value of Cumulative Annual Reduction                                  $3,297
              Amounts for a 10-Year Period27

Reduction in the Projected Health Care Inflation Rate

Similar to the FERS overfunding above, we assume the current $4.1 billion surplus
amount could be corrected in a manner analogous to the OPM’s funding rules for an
underfunded situation.


                                                                                    Amount
                          Retiree Health Care Surplus
                                                                                  (in millions)
              Projected Overfunded Amount as of                                         $6,800
              September 30, 2009

              Annual Payment Reduction Amount Resulting                                    ($481)
              from Amortizing $6.8 Billion Adjusted Surplus
              Over 30 years28

              Present Value of Cumulative Annual Reduction                                $4,077
              Amounts for a 10-Year Period29




26
   Using the OPM’s current discount rate of 5.75 percent.
27
   Using the Postal Service’s current cost of capital rate of 3.875 percent. OIG policy allows monetary impact to be
calculated for a 10-year period.
28
   Using the OPM’s current discount rate of 5.75 percent.
29
   Using the Postal Service’s current cost of capital rate of 3.875 percent. OIG policy allows monetary impact to be
calculated for a 10-year period.




                                                          15
Summary of Substantial Overfunding in Postal Service   FT-MA-10-002
 Pension and Retiree Health Care Funds



                       APPENDIX D: MANAGEMENT’S COMMENTS




                                                  16
Summary of Substantial Overfunding in Postal Service   FT-MA-10-002
 Pension and Retiree Health Care Funds




                                                  17
